U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

May 11, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Hernandez v. United States, No. 20-7610
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 24,
2021. The government’s response is now due, after one extension, on June 1, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including June 25, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-7610
HERNANDEZ, JOSE
USA

GARY PAUL BURCHAM
BURCHAM & ZUGMAN
402 WEST BROADWAY
SUITE 1130
SAN DIEGO, CA 92101
619-699-5930
GBURCHAM@SBCGLOBAL.NET

